No.

In the
Supreme Court of the United States
AKBAR GHANEH FARD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE AND DECLARATION IN COMPLIANCE WITH
28 U. S. C. § 1746

I, Akbar Ghaneh Fard, Petitioner, do hereby declare under penalty of perjury,
that on this date, August 17, 2020, as required by Supreme Court Rule 29,1 have
served the enclosed petition for a writ of certiorari and petitioner’s appendix, on
each party to the above proceeding or that party’s counsel, and on every other
person required to be served, via email and by depositing an envelope containing
the above documents in the U.S. mail properly addressed to each of them and
with first-class postage prepaid. The names and addresses of those served are as
follows^
Solicitor General of the United States
Department of Justice, Room 5614
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
supremectbriefs@usdoj.gov
Executed on August 17, 2020

Akbar Ghaneh Fard
Pro se
1699 West Oak Drive # 25 ’ RECEIVED
Dalton, GA 30721
AUG 2 1 2020
(813) 468-5919
OFFICE OF THE CLERK
SUPREME COURT. U,S.
ghaneha@hotmail.com

